APPENDICES

1a
APPENDIX A
283 So.3d 782
Supreme Court of Florida.
James Milton DAILEY, Appellant,
v.
STATE of Florida, Appellee.
James Milton Dailey, Petitioner,
v.
Mark S. Inch, etc., Respondent.
No. SC19-1780
No. SC19-1797
November 12, 2019
Opinion
PER CURIAM.
James Milton Dailey, a prisoner under sentence of
death and an active death warrant, appeals the circuit
court’s order dismissing in part and denying in part
his third successive motion for postconviction relief,
which was filed under Florida Rule of Criminal Procedure 3.851. We have jurisdiction. See art. V, § 3(b)(1),
Fla. Const. We affirm, and we also deny Dailey’s motion for stay of execution and his petition for a writ of
habeas corpus.
BACKGROUND
On May 6, 1985, fourteen-year-old Shelly Boggio’s
“nude body was found floating in the water near Indian Rocks Beach in Pinellas County, Florida.” Dailey
v. State, 965 So. 2d 38, 41 (Fla. 2007). Boggio “had
been stabbed repeatedly, strangled, and drowned.” Id.
A jury found Dailey guilty of Boggio’s first-degree

2a
murder and unanimously recommended death. Dailey v. State, 594 So. 2d 254, 256 (Fla. 1991). The trial
court followed the recommendation. Id.
On direct appeal, we affirmed Dailey’s conviction
but reversed the sentence. Id. at 259. The trial court
again sentenced him to death on remand, and we affirmed. Dailey v. State, 659 So. 2d 246, 248 (Fla. 1995),
cert. denied, 516 U.S. 1095, 116 S.Ct. 819, 133 L.Ed.2d
763 (1996). In 2007, we affirmed the circuit court’s denial of Dailey’s initial motion for postconviction relief
and denied his petition for a writ of habeas corpus.
Dailey, 965 So. 2d at 48.
Dailey subsequently filed a petition for a writ of
habeas corpus in the United States District Court for
the Middle District of Florida. Dailey v. Sec’y, Fla.
Dep’t of Corr., No. 8:07-cv-1897-T-27MSS, 2008 WL
4470016, at *1 (M.D. Fla. Sept. 30, 2008). The federal
district court dismissed or denied all claims and declined to issue a certificate of appealability. Id. at *10;
Dailey v. Sec’y, Fla. Dep’t of Corr., No. 8:07-CV-1897T-27MAP, 2011 WL 1230812, at *32 (M.D. Fla. Apr. 1,
2011), amended in part, vacated in part, No. 8:07-CV1897-T-27MAP, 2012 WL 1069224, at *8 (M.D. Fla.
Mar. 29, 2012) (amending opinion to include the denial of an additional claim of ineffective assistance of
counsel and denying motion for certificate of appealability to the Eleventh Circuit Court of Appeals).
In 2018, we affirmed the circuit court’s denial of
Dailey’s first successive postconviction motion. Dailey
v. State, 247 So. 3d 390, 391 (Fla. 2018). Dailey’s second successive postconviction motion was denied in
part and dismissed in part by the circuit court; we affirmed on October 3, 2019. Dailey v. State, 279 So.3d
1208 (Fla. 2019).

3a
After Governor DeSantis signed Dailey’s death
warrant on September 25, 2019, Dailey filed a third
successive motion for postconviction relief. The motion raised four claims: (1) his execution would be unconstitutionally arbitrary; (2) newly discovered evidence proves that he is actually innocent and that the
State committed Brady1 and Giglio2 violations; (3) the
circuit court would violate his constitutional rights if
it did not order the Florida Department of Corrections
(DOC) to comply with his requests related to defense
execution witnesses; and (4) the totality of his punishment—including over thirty years spent on death
row—violates the Eighth Amendment.
Following an evidentiary hearing on one newly
discovered evidence claim, the circuit court entered an
order dismissing in part and denying in part the motion.
ANALYSIS
In this Court, Dailey appeals the denial of postconviction relief and the denial of certain records requests filed after the Governor signed his death warrant. Dailey also filed a habeas petition in this Court.
We affirm the postconviction court’s denial of relief
and deny his habeas petition.
Arbitrariness Of Execution
In his first claim, Dailey contends that the circuit
court erred in summarily rejecting his claim that his
execution would be so arbitrary as to violate the Fifth,
Eighth, and Fourteenth Amendments to the United
States Constitution. Because the record conclusively
1 Brady v. Maryland, 373 U.S. 83, 83 S.Ct. 1194, 10 L.Ed.2d 215
(1963).

Giglio v. United States, 405 U.S. 150, 92 S.Ct. 763, 31 L.Ed.2d
104 (1972).

2

4a
shows that Dailey is not entitled to relief, we affirm.
See Fla. R. Crim. P. 3.851(f)(5)(B) (“If the motion, files,
and records in the case conclusively show that the movant is entitled to no relief, the motion may be denied
without an evidentiary hearing.”).
Dailey argues that the circuit court wrongly concluded that “some of the arguments raised in” support
of “this ground amount[ed] to untimely or procedurally barred claims.” These included his “facial challenges to the clemency or warrant [selection] process,”
his assertion that his execution would be arbitrary because he is actually innocent, and his claim that he
had been denied the chance to present newly discovered evidence at an updated clemency hearing.
We agree that Dailey’s actual innocence claim is
procedurally barred. Dailey has already unsuccessfully raised an actual innocence claim in his second
successive postconviction motion. Dailey, 279 So.3d at
1217–18. He cannot present the claim again “by
merely reframing it as a challenge to the warrant.”
Moreover, we have repeatedly held that freestanding
actual innocence claims are not cognizable under Florida law. Id.; Tompkins v. State, 994 So. 2d 1072, 1089
(Fla. 2008).
The remaining claims fail on the merits. We have
consistently rejected the assertion that the warrant
selection process is arbitrary because there are no
standards that constrain the Governor’s discretion in
determining which warrant to sign. See, e.g., Hannon
v. State, 228 So. 3d 505, 509 (Fla. 2017); Bolin v. State,
184 So. 3d 492, 502-03 (Fla. 2015); Mann v. State, 112
So. 3d 1158, 1162-63 (Fla. 2013); Ferguson v. State,
101 So. 3d 362, 366 (Fla. 2012); Gore v. State, 91 So.
3d 769, 780 (Fla. 2012); Valle v. State, 70 So. 3d 530,
551-52 (Fla. 2011). Related challenges to the clemency

5a
process have also been denied. See, e.g., Johnston v.
State, 27 So. 3d 11, 24 (Fla. 2010); Marek v. State, 8
So. 3d 1123, 1129-30 (Fla. 2009). And to the extent
Dailey asserts that his execution would be arbitrary
because he was not granted an additional clemency
proceeding at which to present newly discovered evidence, his claim is foreclosed by our caselaw. See, e.g.,
Grossman v. State, 29 So. 3d 1034, 1044 (Fla. 2010);
Johnston, 27 So. 3d at 25-26. Accordingly, we conclude
that the circuit court properly rejected this claim.
Newly Discovered Evidence,
Brady, and Giglio
Dailey next argues that the circuit court erred in
rejecting his claim that newly discovered evidence
proves the State committed Brady and Giglio violations. We disagree.
In order to demonstrate entitlement to relief
based on newly discovered evidence, two requirements must be satisfied. First, “the evidence ‘must
have been unknown by the trial court, by the party, or
by counsel at the time of trial, and it must appear that
defendant or his counsel could not have known [of it]
by the use of diligence.’ ” Jones v. State, 709 So. 2d
512, 521 (Fla. 1998) (alteration in original) (quoting
Torres-Arboleda v. Dugger, 636 So. 2d 1321, 1324-25
(Fla. 1994)). Second, the “evidence must be of such nature that it would probably produce an acquittal on
retrial.” Id. (citing Jones v. State, 591 So. 2d 911, 915
(Fla. 1991)). “If,” as here, “the defendant is seeking to
vacate a sentence, the second prong requires that the
newly discovered evidence would probably yield a less
severe sentence.” Walton v. State, 246 So. 3d 246, 249
(Fla. 2018) (citing Jones, 591 So. 2d at 915), cert. denied, ––– U.S. ––––, 139 S. Ct. 1184, 203 L.Ed.2d 218

6a
(2019). To be timely, a claim based on newly discovered evidence must be brought within one year of the
date upon which it became discoverable. Jimenez v.
State, 997 So. 2d 1056, 1064 (Fla. 2008).
Dailey claims that newly discovered evidence exists in the form of: testimony from James Slater, a former assistant state attorney; statements made by Edward Coleman, a former inmate who was previously
incarcerated with Dailey; and statements made by
David Howsare, a former correctional officer. He also
raises a Brady claim based on Slater’s testimony and
a Giglio claim based on Coleman’s statements. We address each claim below.
James Slater
Dailey first alleges that the circuit court erred in
denying his claim that testimony from James Slater
constitutes newly discovered evidence proving that
the State committed a Brady violation. When the
lower court has ruled on a claim following an evidentiary hearing, we review “the trial court’s findings on
questions of fact, the credibility of witnesses, and the
weight of the evidence for competent, substantial evidence.” Green v. State, 975 So. 2d 1090, 1100 (Fla.
2008). The lower “court’s application of the law to the
facts,” however, is reviewed de novo. Id.
In support of his postconviction motion below,
Dailey attached an affidavit from former Assistant
State Attorney James Slater. In the affidavit, Slater
recalled that he worked at the State Attorney’s Office
in Pinellas County at the time the victim, Shelly Boggio, was murdered. He stated that he was involved in
the investigation of Boggio’s death and the resulting
prosecution of Jack Pearcy, Dailey’s codefendant.
Slater explained that he remembered being called to
the crime scene where Boggio’s body was recovered.

7a
He said that law enforcement told him that Pearcy attempted to have sex with Boggio, that Pearcy could
not perform, and that Boggio teased Pearcy, causing
him to become irate and stab her.
At the evidentiary hearing, Slater testified that
his role in Pearcy’s case was limited to appearing at
the crime scene and testifying at a subsequent hearing. When Slater was asked whether he remembered
law enforcement telling him that Pearcy attempted to
have sex with Boggio but could not perform, he responded that, “[i]n [his] definition of law enforcement,” he could not identify “any specific individual or
source of that information.” He explained that he “just
had a general 34-year-old recollection that that’s what
this case was about.” When asked if his recollection
also included that Boggio teased Pearcy and he subsequently stabbed her, Slater replied, “That is what the
affidavit indicated, yes.”
Slater went on to explain that the longer he
thought about it, “the less [he could] connect that type
of motivation to anybody involved in that case.” He
admitted that he was not sure whether he “had gotten
confused with another case” he was prosecuting at the
time. He also confessed to feeling “tugged in two directions” and to feeling uncomfortable speaking to Dailey’s attorneys alone.
Slater later clarified that he was positive the
statements were made to him. But he said that he did
not know who made the statements, where he was
when the statements were made, or the context in
which the statements were shared with him. He
stated that he accordingly “question[ed] whether [the
statements] had anything to do with this case.”

8a
In its final order, the circuit court rejected the
claim. The court held that the claim was untimely,
that Slater’s testimony did not constitute favorable,
admissible evidence, and that Slater’s affidavit was
inadmissible hearsay.
We affirm the circuit court’s denial of relief. We
first conclude that Dailey has failed to state a Brady
claim based on Slater’s testimony. Brady requires the
State “to disclose material information within its possession or control that is favorable to the defense.”
Taylor v. State, 62 So. 3d 1101, 1114 (Fla. 2011). To
establish a Brady violation, the defendant has the
burden to show “(1) that favorable evidence, either exculpatory or impeaching, (2) was willfully or inadvertently suppressed by the State, and (3) because the evidence was material, the defendant was prejudiced.”
Id. (emphasis omitted); Strickler v. Greene, 527 U.S.
263, 281-82, 119 S.Ct. 1936, 144 L.Ed.2d 286 (1999).
To meet the materiality prong, the defendant must
demonstrate a reasonable probability that, had the
suppressed evidence been disclosed, the jury would
have reached a different verdict. Taylor, 62 So. 3d at
1114; Strickler, 527 U.S. at 289, 119 S.Ct. 1936. “[A]
‘reasonable probability’ [is] ‘a probability sufficient to
undermine confidence in the outcome.’ ” United States
v. Bagley, 473 U.S. 667, 682, 105 S.Ct. 3375, 87
L.Ed.2d 481 (1985) (quoting Strickland v. Washington, 466 U.S. 668, 694, 104 S.Ct. 2052, 80 L.Ed.2d 674
(1984)).
Here, Dailey cannot make the requisite showing.
Dailey argues that Slater’s testimony and affidavit
prove that the State suppressed evidence that Pearcy
had confessed to Boggio’s murder and had a clear motive for doing so. But even if this Court were to consider the affidavit that was held inadmissible below,

9a
we would be left with inconsistent statements from
Slater indicating—at best—that an unidentified
member of law enforcement, at some unknown time,
told Slater a piece of information that he cannot connect to Pearcy. Because Slater was not certain that
the statements at issue “had anything to do with”
Pearcy’s case, Dailey has not demonstrated the existence of any exculpatory evidence that would have created a reasonable probability of a different verdict.
We also conclude that Dailey has failed to state a
newly discovered evidence claim. The State alleges—
and Dailey does not dispute—that Slater was listed as
a witness at Dailey’s trial. Dailey neglects to explain
why he could not have discovered the information to
which Slater testified either prior to trial or at some
point during the decades that followed. Accordingly,
his claim is untimely.
Edward Coleman
Dailey next contends that the circuit court erred
in summarily dismissing his claim that statements
from Edward Coleman constitute newly discovered
evidence proving that the State violated Giglio. In an
affidavit attached to Dailey’s postconviction motion,
Coleman indicated that he was incarcerated at Pinellas County Jail with Dailey and Pearcy. Coleman
stated that he never saw Dailey talk about his case.
He further alleged that Detective John Halliday
pulled him into a private interview room on two separate occasions. Coleman claimed that on the first occasion, Detective Halliday asked if Dailey or Pearcy
discussed their cases with other inmates. Coleman
stated that Detective Halliday then instructed him “to
listen carefully and try to get information.” On the second occasion, Coleman alleged, Detective Halliday

10a
had newspaper articles about Boggio’s murder, directed him to look for specific details about the case,
and promised to reduce his charges if he shared any
information. Dailey alleges that this testimony would
probably produce an acquittal or less severe sentence
because it would cast doubt on the credibility of the
inmates who testified against him at trial.
To the extent that Dailey contends Coleman’s testimony constitutes newly discovered evidence, we conclude that his claim is untimely. Dailey has long
known that Detective Halliday approached inmates
housed at the Pinellas County Jail, pulled them into a
private interview room, and showed them newspapers
about Boggio’s murder. In his 1999 amended motion
for postconviction relief, Dailey alleged that trial
counsel was ineffective for failing to call two inmates
to testify that Detective Halliday approached them
with newspaper articles. See Dailey, 279 So.3d at
1214–15. After waiving the claim, Dailey raised it
again as a newly discovered evidence claim in his second successive postconviction motion, filed in 2017.
Id.
This history indicates that Dailey has been on notice—since at least 1999—that other inmates might
have been questioned by Detective Halliday. He fails
to state any reason why Coleman’s testimony has only
become discoverable within the last year. Instead, he
argues that he was not granted an evidentiary hearing at which to fully explain why the evidence could
not have been discovered earlier. He therefore contends that this Court must accept the allegation in his
postconviction motion that the evidence is newly discovered. This argument is misguided. Rule
3.851(e)(2)(C)(iv) states that a successive postconviction motion including a newly discovered evidence

11a
claim based on a witness’s testimony must contain “a
statement of the reason why the witness ... was not
previously available.” Because Dailey’s motion failed
to do so, his claim cannot be considered timely.
Dailey also argues that this evidence proves the
State violated Giglio. “[A] Giglio claim is based on the
prosecutor’s knowing presentation at trial of false testimony against the defendant.” Jimenez v. State, 265
So. 3d 462, 479 (Fla. 2018) (quoting Guzman v. State,
868 So. 2d 498, 506 (Fla. 2003)). To establish a Giglio
violation, Dailey must show that “(1) the testimony
given was false; (2) the prosecutor knew the testimony
was false; and (3) the statement was material.” Moore
v. State, 132 So. 3d 718, 724 (Fla. 2013). Here, Dailey
has not identified any false testimony presented during his trial, much less alleged that the State knew of
its falsity or proved that any such statement was material. Accordingly, he is not entitled to relief.
David Howsare
Finally, Dailey argues that the circuit court erred
in summarily dismissing his claim that statements
from former Correctional Officer David Howsare constitute newly discovered evidence. Below, Dailey filed
an affidavit in which Officer Howsare stated that he
worked at the Pinellas County Jail while Pearcy was
incarcerated there. According to Officer Howsare,
Pearcy was known to manipulate guards and fellow
inmates. Officer Howsare further stated that Pearcy
engaged in a physical altercation with another inmate
and attempted to secure favors from guards.
The circuit court concluded that the claim is untimely. We agree. Dailey neglects to explain why this
information could not have been discovered prior to
his trial or at some point during the subsequent decades of postconviction litigation. See Fla. R. Crim. P.

12a
3.851(e)(2)(C)(iv). Accordingly, he is not entitled to relief.
Cumulative Analysis
Dailey next argues that the circuit court erred in
failing to consider whether, when the allegations presented in this postconviction proceeding are considered cumulatively with admissible evidence developed
in prior postconviction proceedings, he is entitled to a
new trial. We disagree. Given that his newly discovered evidence claims were correctly rejected as untimely and that he failed to establish a Brady violation, no such cumulative analysis was required. See
Dailey, 279 So.3d at 1216–17.
Defense Execution Witnesses
Dailey next asserts that the circuit court violated
his Sixth and Eighth Amendment rights in refusing to
direct the DOC to comply with his requests that
(1) one or both of his designated legal witnesses be allowed access to a writing pad and pen during his execution; (2) one or both of his designated legal witnesses be allowed access to a telephone before and
during the execution process; (3) he be afforded a second witness to his execution; and (4) one of his witnesses be allowed to view the IV insertion process. We
disagree. We recently rejected a nearly identical claim
in Long v. State, 271 So. 3d 938, 946-47 (Fla.), cert.
denied, ––– U.S. ––––, 139 S. Ct. 2635, 204 L.Ed.2d
280 (2019). As we recognized in Long, “[t]he DOC is
entitled to a presumption that it will properly perform
its duties while carrying out an execution ... [and] our
‘role is not to micromanage the executive branch in
fulfilling its own duties relating to executions.’ ” Long,
271 So. 3d at 946 (alterations in original) (quoting
Hannon, 228 So. 3d at 509); see also art. II, § 3, Fla.
Const. (“The powers of the state government shall be

13a
divided into legislative, executive and judicial
branches. No person belonging to one branch shall exercise any powers appertaining to either of the other
branches unless expressly provided herein.”). Because
Dailey has not demonstrated that the DOC’s current
policies and procedures are unconstitutional, and because “separation of powers principles preclude us
from performing the executive function of establishing
a procedure to be used for executions,” we conclude
that the circuit court did not err in refusing to direct
the DOC to comply with Dailey’s requests. Long, 271
So. 3d at 947.
Public Records
Dailey next challenges the circuit court’s denial of
his requests for certain public records under Florida
Rule of Criminal Procedure 3.852(h)(3) and (i). “We review rulings on public records requests pursuant to
Florida Rule of Criminal Procedure 3.852 for abuse of
discretion,” Bowles v. State, 276 So. 3d 791, 795 (Fla.)
(quoting Hannon, 228 So. 3d at 511), cert. denied, No.
19-5617, ––– U.S. ––––, ––– S.Ct. ––––, 204 L.Ed.2d
1181, 2019 WL 3977767 (U.S. Aug. 22, 2019), and conclude that none exists here.
As we have recently explained:
Rule 3.852 is “not intended to be a procedure authorizing a fishing expedition for records.” Sims v.
State, 753 So. 2d 66, 70 (Fla. 2000). For this reason,
records requests under Rule 3.852(h) are limited to
“persons and agencies who were the recipients of a
public records request at the time the defendant began his or her postconviction odyssey,” id.; whereas,
records requests under Rule 3.852(i) must “show how
the requested records relate to a colorable claim for
postconviction relief and good cause as to why the public records request was not made until after the death

14a
warrant was signed.” Asay [v. State, 224 So. 3d 695,
700 (Fla. 2017) ] (quoting Tompkins v. State, 872 So.
2d 230, 244 (Fla. 2003)).
Bowles, 276 So. 3d at 795 (alteration in original)
(quoting Hannon, 228 So. 3d at 511). If “a defendant
cannot demonstrate that he or she is entitled to relief
on a claim or that records are relevant or may reasonably lead to the discovery of admissible evidence, the
trial court may properly deny a records request.” Id.
(quoting Asay, 224 So. 3d at 700).
Here, Dailey requested records from the Pinellas
County Sheriff’s Office, the Office of the Governor, the
State Attorney’s Office, the Office of the Medical Examiner for the Eighth District, the Florida Commission on Offender Review, the DOC, the Office of the
Attorney General, and the Florida Department of Law
Enforcement. The circuit court denied all requests to
which the agencies objected, concluding that none
were related to a colorable claim for postconviction relief. Dailey subsequently moved for reconsideration of
his requests to certain agencies;3 his motions were denied.
Dailey has not presented any reason for us to hold
that the circuit court abused its discretion in denying
his requests. Dailey suggests that the circuit court
erred in denying his requests that the DOC and the
Office of the Medical Examiner for the Eighth District
supply records related to the lethal injection protocol.
His argument lacks merit. Because we have upheld
the constitutionality of the current lethal injection

These include the Office of the Medical Examiner for the Eighth
District, the State Attorney’s Office, the Office of the Attorney
General, and the DOC.
3

15a
protocol, such records “are ‘unlikely to lead to a colorable claim for relief.’ ” Hannon, 228 So. 3d at 512
(quoting Walton v. State, 3 So. 3d 1000, 1014 (Fla.
2009)). The circuit court properly denied these requests.
Dailey next alleges that rule 3.852 violates the
Equal Protection and Due Process Clauses. He claims
that certain restrictions in rule 3.852(h)(3) and rule
3.852(i)—which apply only to capital postconviction
defendants—prevent him from obtaining public records to which he would otherwise be entitled. We disagree. We have rejected related challenges to the constitutionality of rule 3.852, Wyatt v. State, 71 So. 3d
86, 111 (Fla. 2011); Howell v. State, 133 So. 3d 511,
515-16 (Fla. 2014), and decline to rule otherwise here.
The disputed limitations in rule 3.852(h)(3) and rule
3.852(i) are aimed at preventing capital postconviction defendants from engaging in an “eleventh hour
attempt to delay the execution rather than a focused
investigation into some legitimate inquiry.” Sims, 753
So. 2d at 68. Therefore, these restrictions are “reasonable in the context of capital postconviction claims.”
Wyatt, 71 So. 3d at 111.
Length Of Time On Death Row
Dailey next argues that the circuit court erred in
summarily denying his claim that adding his execution to the more than thirty years he has spent on
death row amounts to cruel and unusual punishment
under the Eighth Amendment. We have previously rejected similar claims, see, e.g., Long, 271 So. 3d at 946;
Gore, 91 So. 3d at 780, and Dailey’s arguments do not
justify departure from our precedent. Accordingly, we
affirm the circuit court’s summary denial of this
claim.

16a
HABEAS PETITION
Dailey also petitions this Court for a writ of habeas corpus, raising five claims. In his first two
claims, Dailey alleges that there is insufficient evidence to sustain his conviction and argues that his
sentence is disproportionate both as compared to his
codefendant and as compared to others convicted of
similar crimes. Because these claims “could have
been, should have been, or were raised on direct appeal,” they are procedurally barred. Breedlove v. Singletary, 595 So. 2d 8, 10 (Fla. 1992).
Next, Dailey requests that this Court “take a holistic view” of evidence we have previously held procedurally barred, along with errors committed at trial
but deemed harmless on direct appeal. This claim is
nothing more than an attempt to relitigate issues this
Court has rejected in prior proceedings, or to restate
claims raised in the current postconviction appeal. It
is therefore procedurally barred. See Green, 975 So. 2d
at 1115.
In his next claim, Dailey argues that allegations
of ineffective assistance of postconviction counsel
should provide a basis for the Court to consider evidence of actual innocence that would otherwise be procedurally barred. He presented this argument in his
second successive postconviction motion, and we rejected it. Dailey, 279 So.3d at 1214–16. “Habeas corpus is not to be used for additional appeals of issues
that ... were raised” in previous “postconviction motions.” Green, 975 So. 2d at 1115. The claim is accordingly procedurally barred.

17a
Finally, Dailey argues that the principles underlying the Hurst4 decisions require this Court to find
that his sentence is inappropriate. But we have already determined that Dailey is not entitled to Hurst
relief. Dailey, 247 So. 3d at 391. He is therefore procedurally barred from raising the instant claim. See
Breedlove, 595 So. 2d at 10 (concluding that habeas
corpus proceedings may not be used to present “different grounds to reargue” an issue previously raised).
Accordingly, we deny Dailey’s habeas petition.
CONCLUSION
For the reasons expressed above, we affirm the
circuit court’s order dismissing in part and denying in
part Dailey’s third successive postconviction motion.
We also deny Dailey’s habeas petition and his motion
for stay of execution.
It is so ordered.
CANADY, C.J., and POLSTON, LABARGA, LAWSON, LAGOA, LUCK, and MUÑIZ, JJ., concur.

Hurst v. Florida, ––– U.S. ––––, 136 S. Ct. 616, 193 L.Ed.2d 504
(2016), and Hurst v. State, 202 So. 3d 40 (Fla. 2016).
4

18a
APPENDIX B
IN THE CIRCUIT COURT OF THE SIXTH
JUDICIAL CIRCUIT OF THE STATE OF
FLORIDA IN AND FOR PINELLAS
COUNTY CRIMINAL DIVISION
STATE OF FLORIDA,
v.
JAMES DAILEY,
Person ID: 416094, Defendant.
CASE NO. CRC85-07084CANO
UCN: 521985CF00708XXXXNO
DIVISION: T
AMENDED1 FINAL ORDER DISMISSING,
IN PART, AND DENYING, IN PART,
DEFENDANT’S MOTION TO VACATE
JUDGMENT OF CONVICTION AND
SENTENCE OF DEATH AFTER DEATH
WARRANT SIGNED AND DENYING
DEFENDANT’S MOTION FOR STAY;
DIRECTIONS TO CLERK
THIS CAUSE came before the Court upon Defendant’s Motion to Vacate Judgment of Conviction
and Sentence of Death after Death Warrant Signed,
filed October 8, 2019, pursuant to Florida Rule of
Criminal Procedure 3.851. On the same day, Defendant filed a Motion to Interview Jurors, which the
Court denied in a separate order, and a Motion for
Stay of Execution to Allow for a Full and Fair Determination of James Dailey’s Actual Innocence Claims.
The State filed responses to Defendant’s motions on
October 10, 2019. The Court held an initial hearing on
This order is identical to the previously issued order except that
a typo on page twelve was corrected.
1

19a
the motion and response where the parties made arguments as to purely legal issues and the need for an
evidentiary hearing on October 11, 2019. The Court
held an evidentiary hearing on claim 2 as it relates to
James Slater on October 14, 2019. Having conducted
a hearing and heard testimony and the argument of
counsel, and having considered the motion, response,
relevant portions of the record, and applicable law, the
Court finds as follows:
Procedural History
On June 27, 1987, a jury found Defendant guilty
of the first-degree murder of fourteen-year-old Shelly
Boggio. After a penalty phase, the jury unanimously
recommended death. On August 7, 1987, the Court
sentenced Defendant to death, The Florida Supreme
Court affirmed Defendant’s conviction on direct appeal, but struck two of the five aggravating circumstances and remanded for resentencing. Dailey v.
State, 594 So. 2d 254 (Fla. 1991) (hereinafter, Dailey
I).2 On January 21, 1994, the Court resentenced Defendant to death. Defendant’s sentence was affirmed
on appeal. Dailey v. State, 659 So. 2d 246 (Fla. 1995)
(hereinafter, Dailey II). The mandate issued on or
about September 22, 1995. On or about November 21,
1995, the United States Supreme Court denied Defendant’s petition for writ of certiorari. Dailey v. Florida, 516 U.S. 1095 (1996). Defendant subsequently
filed collateral motions for relief in state and federal
court, each of which was dismissed or denied. Dailey
v. State, 965 So. 2d 38 (Fla. 2007) (hereinafter, Dailey
III); Dailey v. Sac’s, Fla. Dep’t of Corr., 2008 WL
4470016 (M.D. Fla. Sept. 30, 2008); Dailey v. Sec’y,
Fla. Dep’t of Corr., 2011 WL 1230812 (M.D. Fla. Apr.
The evidence is introduced at the guilt and penalty phases of
trial is summarized in the appellate opinion.
2

20a
1, 2011), amended in part, vacated in part, 2012 WL
1069224, at *1 (M.D. Fla. Mar. 29, 2012) (amending
opinion to include the denial of an additional claim of
ineffective assistance of counsel and denying motion
for certificate of appealability to the Eleventh Circuit
Court of Appeals).
On January 9, 2017, Defendant filed a successive
motion to vacate death sentence, alleging that he is
entitled to relief pursuant to Hurst v. Florida, 136 S.
Ct. 616 (2016) and Hurst v. State, 202 So. 3d 40 (Fla.
2016). On April 12, 2017, the Court entered a final order denying Defendant’s successive motion to vacate
death sentence. Defendant appealed, and the Florida
Supreme Court affirmed the Court’s order. See Dailey
v. State, 247 So. 3d 390 (Fla. 2018) (hereinafter, Dailey
IV).
While the appeal of Defendant’s successive motion
was pending, Defendant filed a second successive motion to vacate judgments of conviction and sentence on
June 21, 2017. The motion alleged claims of newly discovered evidence, Brady3 and Giglio4 violations, and
an actual innocence claim. On September 14, 2017,
the Florida Supreme Court relinquished jurisdiction
for this Court to hear the motion. The Court entered a
final order on March 20, 2018, denying, in part, and
dismissing, in part, Defendant’s second successive motion. The Florida Supreme Court affirmed this Court’s
order on October 3, 2019. See Dailey v. State, --- So. 3d
---, 44 Fla. L. Weekly S219a (Fla. Oct. 3, 2019) (hereinafter, Dailey V).

3

Brady v. Maryland, 73 U.S. 83 (1963).

4

Giglio v. United States, 405 U.S 150 (19742).

21a
On September 22, 2019, before Dailey V had issued, Governor Ron DeSantis signed a death warrant
for Defendant. The Governor has set an execution
week for the week beginning at noon on Monday, November 4, 2019, through noon on Monday, November
11, 2019. Defendant’s execution has been set for
Thursday, November 7, 2019, at 6:00 p.m. Both the
Florida Supreme Court and this Court have issued
scheduling orders for resolving any motions filed in
this case in an expedited manner.
Motion For Postconviction Relief
Defendant’s motion raises four broad claims, two
of which contain multiple subclaims. Claim one argues that selecting Defendant for execution would be
so arbitrary as to violate the United States Constitution. Claim two argues that newly discovered evidence, namely, testimony from a former prosecutor,
an inmate incarcerated with Defendant pretrial, and
a Pinellas County Jail corrections officer, proves that
Defendant is actually innocent and that the State violated Giglio and Brady. Claim three argues that Defendant has a constitutional right at his execution for
his legal witness to be allowed a writing pad and pen,
to have two attorneys present, for attorney access to a
phone, and to a witness to observe the insertion of the
IV line. Claim four argues that the totality of the sentence imposed, including over thirty years spent on
death row, is cruel and unusual.
Because Defendant’s motion was clearly not filed
within one year of the date the judgment became final,
each of these claims are timely only if an exception is
present See Fla. R. Crim. P. 3.85I(d). The rule provides three exceptions to the timeliness requirement:
(A) the facts on which the claim is predicated were
unknown to the movant or the movant’s attorney

22a
and could not have been ascertained by the exercise of due diligence, or
(B) the fundamental constitutional right asserted
was not established within the period provided for
in subdivision (d)(1) and has been held to apply
retroactively, or
(C) postconviction counsel, through neglect, failed
to file the motion.
Fla. R. Crim. P. 3.851(d)(2). A claim that postconviction counsel was ineffective for failing to file a previous claim, as opposed to a motion, is not an exception
to the time bar. See Dailey V, 44 Fla. L. Weekly S219a.
Further, a motion under rule 3.851 filed after the warrant is signed is automatically considered a successive
motion. Fla. R. Crim. P. 3.851(h)(5). Such a claim shall
be dismissed if “it fails to allege new or different
grounds for relief and the prior determination was on
the merits; or, if new and different grounds are alleged, the trial court finds there was no good cause for
failing to assert those grounds in a prior motion,” Fla.
R. Crim. P. 3.851(e)(2).
“If the motion, files, and records in the case conclusively show that the movant is entitled to no relief,
the motion may be denied without an evidentiary
hearing.” Fla. R. Crim. P. 3.851(5). Conversely, the
Court must hold an evidentiary hearing when a movant makes a facially sufficient claim requiring a factual determination. Mann v. State, 112 So. 3d 1158,
1161 (Fla. 2013). Vague and conclusory allegations
are not sufficient to require a hearing. Valle v. State,
70 So. 3d 530, 550 (Fla. 2011).
Ground One
In ground one, Defendant argues that his execution would be so arbitrary as to violate the Fifth,

23a
Eighth, and Fourteenth Amendments to the United
States Constitution. He makes several arguments in
support of this ground. First, in Part A, he argues that
the fact that he was chosen over more than 100 other
warrant-eligible defendants demonstrates that the
methodology for selecting eligible defendants for execution is arbitrary. Second, in Part B, he argues that
issuing a warrant while his claims in Dailey V were
still pending in the Florida Supreme Court is so arbitrary as to violate the above-mentioned amendments
to the United States Constitution. Part B also contains other claims, which are organized under the
same argument but appear to advance only loosely related arguments. Based on the claims raised in his
prior rule 3.851 motion and the totality of the evidence, he claims he is innocent. He argues that the
pending claims in Dailey V made the warrant premature and suggests that the filing of the warrant deprived him of an opportunity to argue his claims in
court. Finally, he argues that he is forbidden from
pursuing clemency based on his newly discovered evidence claims.
The State responds that this claim is untimely,
procedurally barred, and meritless. The State argues
that Defendant has not presented any basis for an exception to the timeliness requirement of rule 3.851. It
claims that the motion is procedurally barred because
Part A could have been raised on direct appeal or in a
prior motion and Part B realleges allegations from his
previous postconviction motions. Nevertheless, the
State argues that the Florida Supreme Court has repeatedly rejected challenges to the warrant selection
or clemency process like the ones Defendant raises in
this claim. Regarding actual innocence, the State argues that the claim is not cognizable and Defendant

24a
has never successfully demonstrated that newly discovered evidence shows his innocence.
1. Defendant’s Actual Innocence and Clemency Claims [sic] are Untimely and Procedurally Barred.
The Court agrees that some of the arguments
raised in this ground amount to untimely or procedurally barred claims. While this ground ostensibly deals
with the selection process for death warrants, two of
Defendant’s arguments—that he is actually innocent
and that he is unable to raise newly discovered evidence in clemency—are only loosely related to that
claim, and appear to actually be independent claims
for relief. As independent claims, these arguments are
untimely or are procedurally barred. As to the actual
innocence claim, Defendant has previously raised this
claim. This Court and the Florida Supreme Court
found it to be procedurally barred under well-settled
law, and it is still procedurally barred at this time. See
Dailey V, 44 Fla. L. Weekly S219a; Tompkins v .State,
994 So. 2d 1072, 1089 (Fla. 2008) (holding that Florida
does not recognize freestanding actual innocence
claims). As to the claim that he cannot present new
evidence for clemency, this claim should have been
brought once Defendant discovered the evidence he
claims should be considered at a new clemency proceeding, which was discussed in his previous motion
filed more than one year ago. See Dailey V, 44 Fla. L.
Weekly S2I9a (discussing Defendant’s previous newly
discovered evidence claims). It is therefore both untimely and barred in a successive motion. As part of
ground one relies on the fact that the warrant was issued while Defendant has a pending postconviction
proceeding, it is based in part on facts that could not

25a
have been discovered until the warrant actually issued. However, the portions of this claim asserting actual innocence or facial challenges to the clemency or
warrant process are dismissed as untimely and procedurally barred.
2. Ground One is without Merit under Florida Supreme Court Precedent.
Regardless, all of the claims raised in ground one
are without merit under Florida Supreme Court precedent. The Florida Supreme Court has clearly and repeatedly found that the Governor’s discretion in
granting clemency or signing death warrants does not
render either process unconstitutional. Hannon v,
State, 228 So. 3d 505, 509 (Fla. 2017); Bolin v. State,
184 So. 3d 492, 502-503 (Fla. 2015); Pardo v. State,
108 So. 3d 558, 568-569 (Fla. 2012); Gore v. State, 91
So. 3d 769, 780-781 (Fla. 2012); Johnston v. State, 27
So. 3d 11, 24-26 (Fla. 2010); Marek v. State, 14 So. 3d
985, 998 (Fla. 2009). The Court has rejected arguments that clemency proceedings must consider all
aggravating and mitigating evidence or that defendants are entitled to updated clemency proceedings if
there is new evidence. See Pardo, 108 So. 3d at 568569; Gore, 91 So. 3d at 779; Johnston, 27 So. 3d at 25.
While clemency does require some minimum due process, no specific procedures are mandated. Marek, 14
So. 3d at 998; Johnston, 27 So. 3d at 25-26. Courts
should exercise care with claims dealing with the warrant or clemency process due to the separation of powers doctrine. See Gore, 91 So. 3d at 779; Valle, 70 So.
3d at 551-552. The Governor may issue a death warrant while a successive postconviction motion is pending where the Florida Supreme Court has ample opportunity to review the record and the claims raised.
Bolin, 184 So. 3d at 503.

26a
Defendant’s case is not meaningfully different
from the situations discussed by the Florida Supreme
Court in cases such as Hannon, Bohn, Pardo, Gore,
Johnston, and Marek. To the extent that he raises a
facial challenge to the warrant or clemency procedures, those cases squarely reject his position. While
it would certainly be cruel and unusual to execute an
innocent person, a jury found that Defendant committed the murder in this case and he has yet to raise a
successful claim overturning that verdict. Defendant
cannot raise a procedurally barred actual innocence
claim by merely refraining it as a challenge to the warrant. Like in Bolin, the fact that Defendant had a
pending appeal at the time the warrant was issued
was not fatal —the eighteen-page opinion in Dailey V
suggests the Court had ample opportunity to review
the record and his claims. And although Defendant asserts that he has new evidence that he wishes to present to the Governor for clemency, the Court will not
intervene in such matters, as they are properly controlled by the Governor. See Pardo, 108 So. 3d 568569; Gore, 91 So, 3d at 779; Johnston, 27 So. 3d at 25.
In sum, Defendant’s arguments in this ground do not
present any reason for the Court to distinguish this
case from numerous precedents upholding the Governor’s discretion in signing warrants. Ground one is
therefore denied.
Ground Two
Ground two presents newly discovered evidence,
Brady, and Giglio claims based on three pieces of evidence. The Court held an evidentiary hearing on this
claim solely as it relates to James Slater’s testimony.
The remaining claims are resolved without a hearing.
The Court will consider each piece of evidence in turn,
with newly discovered evidence, Brady, and Giglio ar-

27a
guments for a single piece of evidence considered together. A newly discovered evidence claim has two
prongs, which the Florida Supreme Court has described as follows:
In order to set aside a conviction based on
newly discovered evidence, two requirements
must be satisfied. First, the evidence “must
have been unknown by Page 6 of 19 the trial
court, by the party, or by counsel at the time
of trial, and it must appear that defendant or
his counsel could not have known [of it] by the
use of diligence.” Jones v. State, 709 So. 2d
512, 521 (Fla. 1998) (alteration in original)
(quoting Torres-Arboleda v. Dagger, 636 So.
2d 1321, 1324-25 (Fla. 1994)). Second, the “evidence must be of such nature that it would
probably produce an acquittal on retrial.” Id.
However, regardless of whether the “evidence
meets the threshold requirement by qualifying as newly discovered, no relief is warranted” unless the evidence would be admissible at trial. Sims v. State, 754 So, 2d 657, 660
(Fla. 2000).
Dailey V, 44 Fla. L. Weekly S219a.
Defendant also argues that the same evidence
gives rise to a Brady claim, a Giglio claim, or both. To
state a claim under Giglio, Defendant must allege “(1)
the testimony given was false; (2) the prosecutor knew
the testimony was false; and (3) the statement was
material.” Guzman v. State, 868 So. 2d 498, 505 (Fla.
2003). A statement is material under Giglio “‘if there
is any reasonable likelihood that the false testimony
could have affected the judgment of the jury.’” Id. at
506. To state a claim under Brady, Defendant must
allege “(1) that the State possessed evidence favorable

28a
to the defendant; (2) that the defendant did not possess the evidence, nor could he obtain it with any reasonable diligence; (3) that the prosecution suppressed
the evidence; and (4) that had the evidence been disclosed, a reasonable probability exists that the outcome of the proceedings would have been different.”
Roberts v. State, 995 So. 2d 186, 189 (Fla. 2008) (internal quotations omitted). Like with newly discovered evidence, a Brady claim fails if “the evidence
could not have been properly admitted at trial or
would not be admissible on retrial.” Jones, 709 So. 2d
at 519.
1.

James Slater

As to former Assistant State Attorney James
Slater, Defendant alleges that Mr. Slater responded
to the crime scene where the victim’s body was discovered. Defendant’s motion alleges that Slater told postconviction counsel that Jack Pearcy admitted to attempting to have sex with the victim, that Pearcy
“could not perform,” that the victim teased Pearcy,
and that he reacted by stabbing her. Pearcy’s affidavit, attached to Defendant’s motion, is slightly different—while it recounts the same general facts, it does
not indicate that Pearcy was the original source of this
information. Instead, the affidavit only indicates that
unspecified law enforcement told him this information. The State’s response argues that this claim is
untimely because Slater was listed as a witness for
Defendant’s trial and Defendant could have previously obtained his testimony. The State alternatively
argues that the evidence would not produce an acquittal on retrial because the statement was not something Slater heard firsthand, it does not contradict the
State’s theory that Defendant and Pearcy committed
the murder together, and the rule of completeness

29a
would require introducing Pearcy’s other statements
made that incriminated Defendant.
a. Evidentiary Hearing Testimony
The Court held an evidentiary hearing on this
claim, at which Defendant was present telephonically.5 The transcript of the evidentiary hearing is attached to this order. Defendant called Slater as his
first witness. Slater testified that he was only involved in this case because he was on duty when the
victim’s body was found and he was subpoenaed one
hearing. As to the remainder of his affidavit, Slater
appeared to have significant trouble remembering
the, details of this case. He indicated that he did not
previously discuss a confession with Defendant’s postconviction counsel. He testified that the portion of the
affidavit indicating that Pearcy tried to have sex with
the victim but could not perform was just his general
34-year-old recollection of what the case was about.
[sic] He testified that he could not recall any particular source of that [sic] information. He indicated that
he had had two weeks to think about the case since he
spoke with postconviction counsel, and the more he
thinks about it, the less he can connect that statement
to anyone. He testified that he might have confused
this case with another. He also testified that he had
spoken with the State on the telephone and had told

Defendant appeared telephonically from Florida State Prison.
Due to a power surge, Defendant was disconnected multiple
times. The Court immediately stopped the proceedings in both
instances and waited for Defendant to reconnect. After the second instance, Defendant indicated that he would like the hearing
to continue if he disconnected again, but the connection held for
the remainder of the hearing.
5

30a
postconviction counsel that he felt tugged in two directions.
On cross-examination, Slater testified that he had
not thought about this case since he left the State Attorney’s Office in 1985, three months after this murder. He testified that he did not know the victim’s
name at the time when he responded to the crime
scene, and he was “foggy” as to whether there was a
suspect identified at the time. As to the paragraph in
the affidavit indicating that Pearcy confessed to trying to have sex with the victim and stabbing her, he
testified that he did not know who made the statement, when it was made, or what the context was. He
did testify that he was positive the statement was
made to him, but he could not connect the statement
to this ease. He explained that he had a general
thought that the case was about that issue, but he
could not place it anywhere. He indicated that he now
questioned whether it had anything to do with this
case.
Defendant then called Colin Kelly, an investigator
for postconviction counsel. He testified that he and attorney Chelsea Shirley visited Slater on September
27, 2019. He testified that Slater agreed to sign the
affidavit, did not appear hesitant at all, and seemed
to recall the case. He testified that he notarized the
affidavit, and that he would not have done so (and is
not permitted to do so) if the affiant is distressed, under the influence, or having trouble recalling. He testified that Slater read it before he signed it, had an
opportunity to make any changes, and actually did
make a change to the affidavit.
At multiple points during the hearing, Defendant
moved to introduce Slater’s affidavit into evidence, at
which points the State objected. The State argued that

31a
the affidavit was hearsay and was not relevant to the
proceeding. Defendant argued that the affidavit was
not being admitted for the truth of the matter asserted
because it went to show the existence of Brady evidence, it was Chambers v. v. [sic] Mississippi, 410 U.S.
284, 289 (1973), and it was admissible as a statement
against interest. The State responded that it was being offered for the truth of the matter asserted and,
because it was hearsay within hearsay, additional exceptions would be necessary to admit each level of
hearsay,
b. This claim is untimely because it could have
been discovered more than one year ago
through the exercise of due diligence.
First, after the hearing, there can be no question
that this claim is untimely. Although the State made
persuasive arguments regarding timeliness at the October 11, 2019, [sic] hearing, the Court nonetheless
granted an evidentiary hearing in an abundance of
caution due to the allegations in this claim and so that
the vague testimony in Slater’s affidavit could be developed. However, Defendant has presented no evidence or allegations showing that he could not have
ascertained this evidence earlier with the use of due
diligence. In fact, the evidence shows that he could
have. Defendant did not dispute the State’s assertion
that Slater was listed as a witness at trial. There is no
reason Defendant could not have contacted him or deposed him at any time in the last thirty years to determine if he was aware of any information about the
crime. In this claim and others, Defendant has argued
that the State cannot argue that his Brady claims are
untimely based on Banks v. Dretke, 540 U.S. 668, 696
(2004), which stated, “A rule thus declaring ‘prosecutor may hide, defendant must seek,’ is not tenable in

32a
a system constitutionally bound to afford defendants
due process.” But the Florida Supreme Court has
found that Banks did not overrule Florida law holding
that the State does not have the duty to prepare the
defense’s case. Smith v. State, 931 So.2d 790, 805-806
(Fla. 2006); see also Jimenez v. State, 265 So. 3d 462,
480 (Fla. 2018) (rejecting the argument that Banks required consideration of a claim that could have been
raised on direct appeal). As in Smith, Defendant has
not presented evidence that the State concealed
Slater—to the contrary, he was listed as a witness and
was available to the defense. Accordingly, this claim
is dismissed as untimely. Nevertheless, in an abundance of caution, for the reasons below, the Court
finds that this claim would not entitle Defendant to
relief if it were timely.
c. Slater’s affidavit is hearsay and is not admissible in support of this claim.
As the Court ruled at the hearing and as argued
by the State, Slater’s affidavit is hearsay that is not
admissible in this proceeding and would not be admissible at a new trial. When hearsay is presented within
hearsay, each pan of the combined statements must
conform with an exception to the hearsay rule.
§ 90.805, Fla. Stat. (2019). The statement in Slater’s
affidavit is at least triple hearsay—not only is
Pearcy’s alleged confession hearsay, but the unspecified law enforcement officer’s statement and Slater’s
affidavit itself are also hearsay. Even if the Court presumes [sic] that Pearcy’s alleged and unproven confession is a statement against interest under section
90.804(2)(c), Florida Statutes, or is not offered for the
truth of the matter asserted, Defendant has not
shown that the other levels of hearsay were not offered for the truth of the matter asserted or fall under

33a
an exception. The affidavit is therefore inadmissible
hearsay under the Evidence Code.
The affidavit is also not admissible under Chambers. Chambers held that the defendant’s due process
rights were violated when state law prevented him
from introducing a third party’s confession to the
crime for which he was convicted. Bearden v. State,
161 So. 3d 1257, 1264-1265 (Fla. 2015); see Chambers,
410 U.S. at 298-303. The Florida Supreme Court has
held that courts should evaluate whether statements
are admissible under Chambers using a four-factor
test:
(I) the confession or statement was made
spontaneously to a close acquaintance shortly
after the crime occurred; (2) the confession or
statement is corroborated by some other evidence in the case; (3) the confession or statement was self-incriminatory and unquestionably against interest; and (4) if there is any
question about the truthfulness of the out-of
court confession or statement, the declarant
must be available for cross-examination.
Bearden, 161 So. 3d at 1265.
Defendant has not presented any direct evidence
of a confession that might be admissible under Chambers, and even if the mere inference of a confession
might be admissible under Chambers in some circumstances, the factors clearly weigh against admissibility here. The affidavit does not state that Pearcy made
any confession. It merely indicates that “law enforcement told” Slater certain details about the crime. The
affidavit does not explain how law enforcement came
to that knowledge. Slater further testified at the hear-

34a
ing that he did not discuss “a confession” with Defendant’s postconviction counsel on September 27, 2019.
Postconviction counsel appears to be drawing an inference from Slater’s affidavit that law enforcement’s
knowledge must have come from a confession. But this
inference is speculation and does not make the affidavit subject to analysis under Chambers. Regardless,
under the factors described in Chambers and Bearden,
the affidavit is not admissible. The first factor weighs
against admissibility. It is unknown to whom, or
when, the alleged confession was made, undercutting
the reliability of the alleged confession significantly.
The second factor also weighs against admissibility.
As explained more fully below, the circumstances of
the case not only do not corroborate the existence of
this confession, but actually suggest the confession
probably never occurred. Under the third factor, the
statement would have been against Pearcy’s interest
if it were truly given near the time the body was
found. But the under the final factor, Slater’s testimony at the hearing and the circumstances of the case
seriously call the truthfulness of the affidavit into
question, as more fully explained below. Considering
all four factors together, they clearly weigh against
admitting the affidavit. Accordingly, as the Court
found at the hearing, the affidavit was not admissible.
d. Slater’s testimony does not provide any favorable evidence admissible at trial.
Defendant is not entitled to relief on this claim because he has not proven that Pearcy’s alleged confession (or similar favorable evidence admissible at trial)
ever existed. Slater did not even reach the muchvaunted crucible of cross-examination before his testimony withered in court. Even on direct examination,
Slater constantly testified that he was not sure, did

35a
not remember, or did not know almost anything about
this case. He contradicted his affidavit on direct examination, indicating that paragraph 7 was his general impression of the case, not something law enforcement told him. While he did contradict himself
again on cross-examination—saying that he was positive someone made the statement contained in his affidavit—he also said he could not be positive it was in
reference to this case. Given the clear deficiencies in
Slater’s memory and inconsistencies on display at the
hearing, the Court finds that his testimony—and his
affidavit, if the Court were to consider it—is wholly
without credibility. But even if the Court had found
Slater’s testimony credible, he never testified that
Pearcy confessed or clearly testified that law enforcement in this case knew Pearcy unsuccessfully attempted to have sex with the victim or stabbed her
because she made fun of him. Slater’s impression of
the case, particularly given that he worked on this
case in only a minor capacity 34 years ago, is not admissible or favorable evidence. In short, Slater’s testimony does not provide the Court with any admissible,
favorable evidence, newly discovered or otherwise.
Although Slater did not testify that Pearcy confessed, the circumstances of the case further demonstrate that it is highly unlikely that law enforcement
knew of a confession as alleged in Defendant’s motion.
Slater testified that he only worked on this case because he was on duty when the victim’s body was
found and was subpoenaed for a later hearing. At the
time when the victim’s body was found, she was not
yet identified. (See Exhibit A: Deposition of Detective
John Halliday, 5, 20). The victim was not identified
for several days, and Pearcy was not identified as a
suspect until even later than that. (See Ex. A at 24.)
Accordingly, in order to find that law enforcement told

36a
Slater about a confession, the Court would have to
presume that Pearcy confessed before he was even
found or identified as a suspect. Further, the Court
would have to presume that the State was fully aware
of this confession but chose not to use it in Pearcy’s
trial. This is even more absurd when the Court considers that the State always pursued the theory that
Defendant and Pearcy acted together—meaning that
Pearcy’s alleged confession here was not inconsistent
with Defendant’s guilt. It is far more likely that the
statement in Slater’s affidavit was due to Slater misremembering this case that had he little involvement
in over thirty years ago. In sum, the evidence does not
show that this confession from Pearcy ever existed.
Nor does it show that other evidence supporting the
statement in Slater’s affidavit ever existed. There is
therefore nothing in this argument on which Defendant could base a newly discovered evidence, Brady, or
Giglio claim.
2.

Edward Coleman

As to Edward Coleman, Defendant has filed an affidavit based on Coleman’s experience as an inmate in
Pinellas County Jail during the time when Defendant
was incarcerated there. Coleman’s affidavit indicates
that he was housed in the same pod as Defendant and
Pearcy for a short time. He alleges that he never witnessed Defendant talk about his case. He alleges that
he was pulled into a private interview room by Detective John Halliday on two occasions. According to his
affidavit, on the first occasion, Detective Halliday
asked if Defendant or Pearcy talked about their cases
with anyone else, and Coleman answered that Defendant did not, and he did not know if Pearcy did,
Detective Halliday instructed him to listen carefully
and try to get information. On the second occasion,

37a
Detective Halliday bad newspaper articles about the
case, directed Coleman to look for certain details
about the case, and promised to reduce his charges if
he was to learn anything. The affidavit indicates that
he was contacted by an investigator for Defendant on
September 29, 2019.
The State argues that this claim is meritless, untimely, and procedurally barred. It argues that Defendant and trial counsel knew that Detective Halliday questioned numerous inmates at the jail at the
time of trial. The State argues that the essence of this
claim was raised in Defendant’s original postconviction motion, which alleged that Michael Sorrentino
and James Wright were approached by Detective Halliday and shown newspaper articles about the murder. Defendant raised a similar claim again in 2017,
which the Court denied after an evidentiary hearing.
The State therefore claims that the use of reasonable
due diligence would have led to Coleman sooner. The
State also argues that the evidence would not have resulted in an acquittal or a less severe sentence because the inmates who testified against Defendant at
trial volunteered information and were not pulled out
of the pod by Detective Halliday.
a. Defendant’s claims regarding Edward Coleman
are untimely and procedurally barred.
The Court agrees that this claim is untimely and
procedurally barred. The instant claim is now Defendant’s third motion raising a claim relating to Detective
Halliday’s conduct based on testimony from Pinellas
County Jail inmates, First, Defendant’s 1999 motion
for postconviction relief raised a claim that counsel
was ineffective for failing to call Sorrentino and
Wright to testify that Detective Halliday approached
them with newspaper articles about the murder. (Ex.

38a
B: Defendant’s Amended Motion to Vacate Judgments
of Conviction and Sentence, 25-26; Ex. C: November
19, 2001 Transcript of Proceedings, 6.) Postconviction
counsel waived this claim for strategic reasons with
Defendant’s consent. (Ex. D. June 29, 2004 Transcript
of Proceedings, 6¬7; Ex, E: November 5, 2004, Transcript of Proceedings, 7-8.) Defendant brought this
same claim again in his 2017 motion to vacate his
judgment and sentence, which the Court dismissed as
untimely. (Ex. F: Defendant’s Second Successive Motion to Vacate Judgments of Conviction and Sentence,
8; Ex. G: Final Order Denying in Part and Dismissing
in Part Defendant’s Second Successive Motion to Vacate Judgments of Conviction and Sentence, 11-15.)
Defendant alleges no reason why he could not
have brought this claim in 1999 or in 2017 with either
of his previous claims asserting similar facts. Without
such a reason, this claim is both untimely and successive. While this claim is not precisely the same as
those prior claims, it is closely related, and Defendant
offers no good reason for failing to bring this claim in
either of those prior motions. See Fla. R. Crim. P.
3.851(e)(2). Nor does’Defendant make any allegations
suggesting that he could not have found Coleman
more than one year ago with due diligence. See id. at
(d)(2). The facts Defendant discovered forming the basis of his prior claims discussed above put him on notice by 1999, at the very least, that inmates sharing
the same pod as Defendant may have been questioned
by a detective or seen other inmates being brought
into an interview room. Defendant offers no reason
why he could not have found Coleman and learned of
his testimony at that time. Nor does he offer any reason why he could not have found Coleman at the time
of his motion in 2017, when he also raised a similar

39a
claim. Defendant’s allegations do not meet the requirements of rule 3.851(d) or (e)(2), and therefore
should be summarily dismissed.
b. Even if not procedurally barred, Defendant’s
claims regarding Edward Coleman would be
denied because his testimony would not
change the outcome of the trial.
Regardless, Defendant would not be entitled to relief on this claim if it were timely because there is no
prejudice. Under either the Jones newly discovered
evidence test or Brady, this evidence would not have
changed the outcome of the original trial and would
not cause a different result in a new trial. The Court
previously found that Sorrentino’s and Wright’s testimonies were weak evidence at best and entirely irrelevant at worst because neither inmate testified that
they saw any of the snitches who testified in this trial.
(Ex. G at 13-14.) The same reasoning applies to Coleman’s testimony. Coleman’s affidavit indicates that
he did not see Defendant talk about his case to anyone, that Detective Halliday asked him about Defendant and Pearcy, that Detective Halliday brought
newspapers with him, and that Detective Halliday
asked him to look for details about the case with a
promise of a deal. He does not allege that he saw Detective Halliday question or offer the same deal to the
snitches who testified at trial. Like Sorrentino’s and
Wright’s testimonies, Coleman’s testimony would
therefore be weak impeachment testimony. There is
not a reasonable probability that such evidence would
produce an acquittal on retrial or that the outcome of
the original proceeding would have been different.

40a
c. To the extent Defendant raises a Giglio claim
with regard to Edward Coleman’s testimony, it
is vague, conclusory, and without merit.
Although Defendant’s motion purports to allege a
Giglio claim in relation to Coleman’s testimony, he
does not set out any facially sufficient claim. The sole
allegations concerning false testimony are on page 24,
where Defendant alleges that the State “withheld Giglio evidence” and “misrepresent(ed) key facts at
trial.” Defendant does not specify any false testimony,
much less explain how the State knew it was false or
why it was material. Such a vague and conclusory
claim is not sufficient. See Valle, 70 So. 3d at 550. Regardless, given the weakness of Coleman’s evidence as
impeachment, it is unlikely that Defendant could
show that the State put on false testimony and knew
that the testimony was false. Merely showing that two
witnesses’ testimonies are in conflict does not establish a Giglio violation, Ferrell v. State, 29 So. 3d
959,978 (Fla. 2010): Defendant’s Giglio claim would
therefore also be denied were it timely raised.
3.

David Howsare

As to Corrections Officer David Howsare, Defendant filed an affidavit from Officer Howsare based on
his experience working at Pinellas County Jail in the
mid-to-late 1980s. Officer Howsare’s affidavit attests
to Pearcy’s reputation at the jail, including assertions
that he was manipulative, that. he was used as an example of bad behavior, and that he tried to manipulate other inmates. The State argues that this claim is
untimely, as Defendant has known that Pearcy was
housed at [sic] the jail and could have obtained testimony from Officer Howsare [sic] decades ago. Further,
the State argues that Officer Howsare’s testimony
would not be admissible as character evidence. Pearcy

41a
did not testify at Defendant’s trial and has consistently refused to do so.
The Court agrees with the State. Defendant is not
entitled to relief on this untimely, conclusory claim.
Defendant offers no allegations explaining why this
evidence could not have been located at the time of
trial, much less in the decades of postconviction litigation following the appeal. Further, Defendant has not
made any showing explaining how this evidence is
even relevant, much less that it would produce an acquittal on retrial or would have changed the outcome
of the original proceedings. The affidavit largely
amounts to show that Officer Howsare and other corrections officers found Pearcy to be manipulative. It is
unclear if Defendant intends to argue that this evidence shows that Pearcy manipulated Defendant into
committing the crime, that Pearcy framed Defendant
for the crime, or something else entirely. Regardless,
it is weak evidence for either of those propositions,
and it would not likely have led to a different result.
To the extent Defendant raises a Giglio claim with regard to this evidence, he has not explained what false
testimony the State presented, alleged that the State.
knew it was false, or shown how it was material. Defendant has not set out any timely, facially sufficient
claim with regard to this evidence. The claim is therefore dismissed.
4.

Cumulative Analysis

Defendant requests that the Court consider the
cumulative effect of the allegedly newly discovered evidence, the evidence presented in previous postconviction motions, and the evidence presented at the trial.
He also argues that the Court should consider the effect of Hurst and the effect of several errors found
harmless on his direct appeal. A cumulative analysis

42a
is unnecessary. As with Defendant’s previous motion,
“given that all of Dailey’s newly discovered evidence
claims were either correctly rejected as untimely or
based on inadmissible evidence, no such analysis [is]
necessary.” Dailey V, 44 Fla. L. Weekly S219a. Defendant is therefore not entitled to a cumulative analysis on these claims.
Ground Three
In ground three, Defendant requests that the
Court direct the Department of Corrections (DOC) to
comply with several requests and claims that his constitutional rights will be violated if they do not do so.
First, he requests that his legal witness or witnesses
be allowed access to a writing pad and pen during his
execution. He indicates that he anticipates that DOC
will allow this request, but deny all of his other requests. Second, he requests that his witness or witnesses be allowed access to a telephone before and
during the execution process. Third, he requests a second witness. Finally, he requests that one of his witnesses be allowed to view the IV insertion process.
The State responds that the claim is premature
and that the DOC or the prison warden has discretion
and authority in these areas. First, the State argues
that, based on Justice Luck’s concurring opinion in
Long v. State, 271 So. 3d 938, 946 n.6 (Fla. 2019), the
claim is premature because Defendant only anticipates that DOC will deny these requests. On the merits, the State argues that section 922.11, Florida Statutes, affords the warden discretion in selecting or excluding witnesses from the execution. They argue that
DOC has policies limiting what is allowed inside the
prison and the execution viewing room, and the courts
should not micromanage execution policies beyond determining whether a procedure is unconstitutional.

43a
The State asserts that Defendant has raised only
speculative violations of his constitutional rights that
do not establish a valid claim. Finally, the State notes
that the Florida Supreme Court rejected a nearly
identical claim in Long.
Defendant is not entitled to relief on this claim. As
the State argues, a nearly identical claim was raised
in Long. The Florida Supreme Court affirmed the denial of that claim. The Court observed that the defendant had not demonstrated that DOC’s existing policies
and procedures violated his rights and that the courts
could not micromanage the executive branch in fulfilling its own duties relating to executions. Id. at 946947. Defendant has not demonstrated any reason why
this case is meaningfully different from Long. As the
Supreme Court found in that case and the State argues here, Defendant asks the Court to micromanage
DOC’s policies concerning witnesses in order to prevent hypothetical violations of his rights. The Court
presumes that DOC will properly perform its duties
related to the execution. Long, 271 So. 3d at 946.
Ground three is therefore denied.
Ground Four
In ground four, Defendant argues that the totality
of his punishment, including the time he spent on
death row, violates the Eighth Amendment. Defendant alleges that he has spent thirty years on death
row, and that the psychological pain he has endured
during that time is more severe than the death sentence itself. [sic] Defendant acknowledges that the
Florida Supreme Court [sic] has rejected this argument, but argues that the United States Supreme
Court and other courts in the country have reached a

44a
“doctrinal stalemate.” He bases this argument on Justice Stevens’s concurring opinion on denial a writ of
certiorari in Lackey v. Texas, 514 U.S. 1045 (1995).
The State argues that this claim is untimely and
without merit. As to timeliness, the State argues that
Lackey does not create a new rule of constitutional law
because it was issued in 1995. On the merits, the State
argues that binding precedent has consistently rejected this claim. Finally, the State argues that Defendant cannot use collateral challenges and appeals
to delay his execution and then complain about the
length of time he waited for execution.
This claim is timely, but Defendant is nonetheless
not entitled to relief. As to timeliness, this claim is
based on the total amount of time Defendant has
spent on death row. Defendant could not have known
how long he would spend on death row until his execution was scheduled. Therefore, this claim is based
on facts that could not have been discovered until the
warrant was signed. Given that Florida caselaw has
yet to find any period of time on death row to be cruel
and unusual, there was no particular point prior to
now at which Defendant should have filed this claim.
Finding this claim untimely would simply encourage
defendants to file motions periodically raising similar
claims in hopes of timely filing a motion after a particular threshold was reached. Filing a single motion
after the warrant has issued and Defendant is aware
of the total length of his stay on death row is fax more
economical. Accordingly, this claim is timely.
Regardless,. as Defendant admits, the Florida Supreme Court has repeated held that lengthy periods
on death row prior to an execution are not cruel and
unusual. See, e.g., Long, 271 So. 3d at 938; Jimenez,
265 So. 3d at 475; Branch v. State, 236 So. 3d 981,988

45a
(Fla. 2018); Muhammad, 132 So. 3d at 206-207; Gore,
91 So. 3d at 780-781. Lackey, a twenty-four-year-old
memorandum opinion from two United States Supreme Court Justices concurring in the denial of certiorari, has no precedential value and does not provide
any reason for this Court to ignore binding precedent.
Nor is Defendant’s period of incarceration on death
row so long as to distinguish him from previous cases.
See, e.g., Long, 271 So. 3d at 946 (over thirty years);
Muhammad, 132 So. 3d at 206 (over three decades).
Based on the Florida Supreme Court’s precedent, this
claim is denied.
Motion To Stay
Defendant also filed a motion to stay. The Court
previously reserved ruling on this motion until after
the Court ruled on Defendant’s motion. At the October
14 hearing, Defendant argued that [sic] the Court
should grant the stay despite the denial of Defendant’s [sic] rule 3.851 motion because legal proceedings
will still be ongoing in the Florida Supreme Court and
the federal courts.
The Court finds it would not be appropriate to
grant a stay at this time. This Court has now rejected
Defendant’s claims within the timeframe set by the
Florida Supreme Court. The Court does not anticipate
that the Florida Supreme Court or the federal courts
will be unable to review these claims under the time
constraints required by the warrant. Further, if this
Court is incorrect in that assessment, the Florida Supreme Court or the federal courts have the power to
issue a stay as well. Defendant’s motion to stay is
therefore denied.

46a
Accordingly, it is
ORDERED AND ADJUDGED that Defendant’s
Motion to Vacate Judgment of Conviction and Sentence of Death after Death Warrant Signed is hereby
DISMISSED IN PART and DENIED IN PART as
fully explained in the body of this order. The Florida.
Supreme Court’s September 26, 2019 [sic] scheduling
order requires a notice of appeal to be filed by 10:00
a.m., Thursday [sic] October 17, 2019.
IT IS FURTHER ORDERED AND ADJUDGED that Defendant’s Motion for Stay of Execution to Allow for a Full and Fair Determination of
James Dailey’s Actual Innocence Claims is hereby
DENIED.
THE CLERK OF THE CIRCUIT COURT IS
HEREBY DIRECTED to transmit the record of
these proceedings to the Clerk of the Supreme Court
of Florida immediately. No notice of appeal shall be
required.
DONE AND ORDERED in Chambers in Clearwater, Pinellas County, Florida, this 16th day of October, 2019. A true and correct copy of this order has
been furnished to the parties listed below.
/s/ Pat Siracusa,
Pat Siracusa, Circuit Judge

